WILMERHALE

Seth P. Waxman
+1 202 663 6800 (1)

+1 202 663 6363 (f)
seth waxman@wilmerhale.com

October 3, 2019
By Electronic Filing and Hand Delivery

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.

Washington, D.C. 20543

Re: Athena Diagnostics, Inc., et al. v. Mayo Collaborative Services, LLC, DBA Mayo
Medical Laboratories, and Mayo Clinic, No. 19-430

Dear Mr. Harris,
I am counsel of record for petitioners in the above-captioned case. Pursuant to Rule

37.2(a), petitioners hereby consent to the filing of amicus curiae briefs in support of either or
neither party, if filed within the time allowed by the Court’s rules.

Best regards,

   
  

eth P, Waxman
Counsel of Record for Petitioners

ce: Jonathan E. Singer (by email and overnight courier)
Counsel for Respondents

Wilmer Cutler Pickering Hale and Dorr tr, 1875 Pennsylvania Avenue NW, Washington, DC 20006
Beijing Berlin. Boston Brussels Denver Frankfurt London Los Angeles New York Palo Alto San Francisco Washington
